                                                                                Issue Date
                                                                                     February 6, 2012
                                                                                Audit Report Number
                                                                                     2012-NY-1006




TO:             Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU



FROM:           Edgar Moore, Regional Inspector General for Audit, New York-New Jersey
                                                         Region, 2AGA

SUBJECT:        MLD Mortgage, Inc., Florham Park, NJ, Did Not Always Comply With HUD-
                FHA Loan Origination and Quality Control Requirements

                                             HIGHLIGHTS

    What We Audited and Why

                 We audited Mortgage Lending Direct, Inc. (MLD), a nonsupervised lender1
                 located in Florham Park, NJ, in support of the U.S. Department of Housing and
                 Urban Development (HUD), Office of the Inspector General’s (OIG) goal of
                 improving the integrity of the single-family insurance program. We selected
                 MLD for audit because its 8.88 percent default rate for Federal Housing
                 Administration (FHA)-insured single-family loans with beginning amortization
                 dates between February 1, 2009, and January 31, 2011, was nearly double the
                 New Jersey State average of 4.45 percent for the same period. The audit objective
                 was to determine whether MLD officials originated FHA-insured loans and
                 implemented a quality control plan in accordance with HUD-FHA requirements.

    What We Found
                 MLD officials did not always originate FHA-insured loans in accordance with
                 HUD-FHA requirements. Specifically, 14 of the 25 loans reviewed exhibited


1
  A nonsupervised lender is an FHA-approved lending institution, the principal activity of which involves lending or
investing funds in real estate mortgages.
                    material2 underwriting deficiencies. As a result, the FHA insurance fund incurred
                    an actual loss of $176,988 on one loan and is at risk for potential losses of more
                    than $2.7 million on the remaining 13 loans. In addition, MLD officials charged
                    borrowers unsupported fees of $15,611 and lacked adequate documentation for
                    $8,996 in mortgage payoffs.

                    While MLD officials established a quality control plan that complied with HUD-
                    FHA requirements, they did not ensure that the plan was implemented as
                    established. Specifically, loans that defaulted within the first 6 months3 were not
                    reviewed, and deficiencies identified in rejected loans were not reported to
                    management. As a result, MLD officials may have missed the opportunity to
                    address systemic deficiencies in MLD’s origination processes and, thus, reduce
                    unnecessary risk to the FHA insurance fund.

    What We Recommend
                    We recommend that HUD’s Deputy Assistant Secretary for Single Family
                    Housing require MLD officials to (1) indemnify HUD against potential losses of
                    $2.7 million related to the 13 loans with material underwriting deficiencies; (2)
                    reimburse the FHA insurance fund for the $176,988 claim paid; (3) obtain
                    adequate documentation for unsupported fees of $15,611 and mortgage payoffs of
                    $8,996 and if such documentation cannot be provided, refund or collect the
                    applicable amounts due to or from the borrowers; and (4) strengthen controls to
                    ensure that future FHA-insured loans are approved and the quality control plan is
                    implemented in accordance with HUD-FHA requirements.

                    For each recommendation without a management decision, please respond and
                    provide status reports in accordance with HUD Handbook 2000.06, REV-4.
                    Please furnish us copies of any correspondence or directives issued because of the
                    audit.

    Auditee’s Response
                    We discussed the results of the audit with MLD officials during the audit and
                    provided them a discussion draft audit report on December 16, 2011. We
                    discussed the draft report with MLD officials at an exit conference held on
                    January 11, 2012. We requested that MLD officials provide written comments to
                    the discussion draft on January 18, 2012, which we received that date. MLD
                    officials generally disagreed with the draft report findings, and provided specific
                    comments for 4 of the 15 loans we had classified as having material underwriting
                    deficiencies. The complete text of MLD’s response, along with our evaluation of
                    that response, can be found in appendix B of this report.



2
    A deficiency is considered material if it could affect the loan approval decision.
3
    Loans that default within the first six payments are considered early payment defaults.

                                                            2
                            TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
      Finding 1: MLD Officials Did Not Always Originate FHA-Insured              5
                 Loans in Accordance With Regulations

      Finding 2: MLD Officials Did Not Implement Their Quality Control Plan in   13
                 Accordance With HUD-FHA Requirements

Scope and Methodology                                                            17

Internal Controls                                                                18

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use             20
   B. Auditee Comments and OIG’s Evaluation                                      21
   C. Summary of Material Underwriting Deficiencies                              28
   D. Schedule of Actual and Potential Losses to the FHA Insurance Fund          29
   E. Case Summary Narratives                                                    30




                                            3
                          BACKGROUND AND OBJECTIVE

Mortgage Lending Direct, Inc. (MLD), doing busines as The Money Store, is a U.S. Department
of Housing and Urban Development (HUD)-Federal Housing Administration (FHA)-approved
Title II nonsupervised lender located in Florham Park, NJ. A nonsupervised lender is an FHA-
approved lending institution that has as its principal activity the lending or investment of funds in
real estate mortgages and may be approved to originate, sell, purchase, hold, and service FHA-
insured mortgages.

MLD was incorporated on August 18, 2000, under the laws of the State of New Jersey for the
primary purpose of engaging in mortgage banking for the origination and sale of mortgages. On
May 30, 2003, MLD was designated a direct endorsement lender, which allowed it to underwrite
FHA-insured single-family loans without prior review by HUD-FHA. MLD is licensed
throughout the United States and the District of Columbia and during the review, operated one
branch office in Florham Park, NJ, which administered the lender’s Internet-based originations
on a national scale, and another branch in Boca Raton, FL.

HUD’s Neighborhood Watch system4 reported that MLD officials originated 923 FHA-insured
loans with beginning amortization dates between February 1, 2009, and January 31, 2011. As of
January 2011, Neighborhood Watch reported that 78 of these loans were seriously delinquent
and 4 loans were in claim status. As a result, MLD experienced a default rate for this 2-year
period of 8.88 percent, which was double the New Jersey State average of 4.45 percent for the
same period.

The audit objective was to determine whether MLD officials originated FHA-insured loans and
established and implemented a quality control plan in accordance with HUD-FHA requirements.




4
  Neighborhood Watch is a Web-based comprehensive data processing, automated query, reporting, and analysis
system that is intended to aid HUD in monitoring lenders and its programs and is designed to highlight exceptions to
lending practices regarding high-risk mortgages so that potential problems are readily identifiable.


                                                         4
                                       RESULTS OF AUDIT

Finding 1: MLD Officials Did Not Always Originate FHA-Insured
           Loans in Accordance With Regulations
MLD officials did not always originate FHA-insured loans in accordance with HUD-FHA
requirements. Specifically, 14 of the 25 loans reviewed exhibited material underwriting
deficiencies involving inadequate verification or documentation of borrowers’ income, assets,
liabilities, or employment history, and approval of a loan that was ineligible as a cash-out
refinance. As a result, the FHA insurance fund incurred an actual loss of $176,988 for a claim
paid on one loan and is at risk for potential losses of more than $2.7 million on the remaining 13
loans. In addition, MLD officials charged borrowers unsupported fees of $15,611 and lacked
adequate documentation for mortgage payoffs of $8,996. These deficiencies occurred due to
MLD officials’ lack of due diligence in underwriting FHA-insured loans and unfamiliarity with
HUD-FHA regulations.


    Material Underwriting
    Deficiencies Noted

                  Review of 25 MLD loan files disclosed material underwriting deficiencies in 14
                  of the loans. These deficiencies occurred because MLD officials did not exercise
                  due diligence in verifying and documenting borrowers’ income, assets, liabilities,
                  and employment history. While MLD officials used HUD’s Technology Open to
                  Approved Lenders (TOTAL) Mortgage Scorecard5 in the underwriting process for
                  12 of these 14 loans, Mortgagee Letter 2004-01 provides that the undewriter is
                  responsible for the integrity of the data used by TOTAL Scorecard and for
                  resubmitting the loan when material changes are discovered or otherwise occur
                  during loan processing. Further, Mortgagee Letter 2004-47 provides that,
                  although documentation requirements for loans assessed through TOTAL
                  Scorecard are less than those for manually underwritten loans, credit history,
                  income, employment, and assets must be verified.




5
  TOTAL Scorecard is not an automated underwriting system, but a mathematical equation that evaluates a
borrower’s credit history along with several additional application variables to approve a loan for underwriting
through an automated underwriting system or to refer the loan for traditional manual underwriting.

                                                          5
                 The table below summarizes the material deficiencies identified in the 14 loan
                 files6.

                                          Deficiency                                       Number of loans
                 Incorrect or inadequate calculation of income of liabilities                   6
                 Inadequate verification of earnest money deposit                               4
                 Inadequate documentation of gifts                                              2
                 Inadequate verification of assets or funds to close                            4
                 Judgment paid with loan proceeds                                               1
                 Inadequate verification of employment                                          3
                 Approval of cash-out refinance loan with late payments                         2

                 Appendix C of this report provides a summary of the material underwriting
                 deficiencies identified in each of the 14 loan files, and appendix E provides a
                 detailed description of the underwriting deficiencies and applicable HUD-FHA
                 requirements.

    Incorrect Income and Liability
    Calculation


                 MLD officials did not adequately verify the borrower’s income or liabilities for
                 six loans. For example, for loan number 374-5539758, MLD officials calculated
                 overtime income of the borrower based upon an 11.75 monthly overtime average
                 and “other” income (reported on the verification of employment as “locality,
                 overtime meals, adjustments, and Saturday pay”) to develop the borrower’s
                 monthly income. While this process resulted in a $2,172 monthly overtime
                 amount and $389 monthly “other” income, we calculated a 2-year average income
                 based upon income data reported in the verification of employment as required by
                 HUD Handbook 4155.1, paragraph 4D(2)(b). This calculation resulted in
                 monthly overtime income of $1,695 and “other” income of $368, which was $497
                 less than that used to qualify the borrower. Additionally, MLD officials
                 understated the borrower’s monthly rental income by $212 because they applied
                 the 85 percent vacancy rate as required by HUD Handbook 4155.1, paragraph
                 4.E.4b to the $3,200 monthly rent reported by the borrower as opposed to the
                 $3,450 monthly rent documented in the property appraisal. The net result of the
                 incorrect calculation of estimated borrower monthly income was a monthly
                 overstatement of $285.

                 MLD officials also did not include a $246 monthly payment for a deferred
                 education loan as a liability of the borrower. A credit report in the loan file
                 reported that the borrower had an education loan that was deferred until May 6,
                 2010, with the first payment due December 6, 2010. Since the loan closing was
                 scheduled for January 12, 2010, the first payment on the educational loan would
6
 The deficiencies noted are not independent of one another as one loan may have contained more than one
deficiency.

                                                       6
                  be within 1 year of the loan’s closing date and should have been considered when
                  calculating the borrower’s liabilities. The incorrect calculation of income and
                  liabilities would cause the borrower’s front and back ratios7 to increase from
                  39.52 and 54.71 percent to 40.92 and 59.71 percent, respectively.

    Unsupported Earnest Money
    Deposit

                  MLD officials did not adequately verify the earnest money deposit assets for four
                  loans in which the deposit exceeded 2 percent of the sales price. HUD Handbook
                  4155.1, paragraph 5B(2)(a), requires that the source of any earnest money deposit
                  be documented and verified if the amount of the earnest money deposit exceeds 2
                  percent of the sales price or appears excessive based on the borrower’s history of
                  accumulating savings. Satisfactory documentation includes a copy of the
                  borrower’s cancelled check, certification from the deposit holder acknowledging
                  receipt of funds, or separate evidence of the source of funds. Separate evidence
                  includes a verification of deposit or a bank statement showing that the average
                  balance was sufficient to cover the amount of the earnest money deposit at the
                  time of the deposit. This evidence was not provided or contained in the loan files.

    Inadequate Gift Documentation

                  MLD officials did not adequately verify or document the source of gift funds used
                  for two loans. For example, while the loan file for FHA case number 352-
                  6632782 contained a gift letter and cashier’s check for $8,750, dated November
                  12, 2009, the donor’s bank statement showed a $121 balance as of November 12,
                  2009, and that $8,750 was both deposited in and withdrawn from the account on
                  November 13, 2009. Consequently, MLD officials did not reconcile discrepant
                  information or document that the gift funds were the donor’s own funds. HUD
                  Handbook 4155.1, paragraph 5B(4)(d), requires that regardless of when gift funds
                  are made available to a borrower, the lender must be able to determine that the
                  gift funds were not provided by an unacceptable source and were the donor’s own
                  funds. When the transfer occurs at closing, the lender is responsible for verifying
                  that the closing agent received the funds in the amount of the gift from the donor
                  and that the funds were from an acceptable source.

    Inadequate Asset
    Documentation

                  MLD officials did not obtain adequate asset documentation for four loans. HUD
                  Handbook 4155.1, REV-5, section 2-10, requires that all funds for the borrower’s

7
  The front ratio is the mortgage-to-income ratio, and the back ratio is the fixed payment-to-income ratio. A front
ratio exceeding 31 percent, and a back ratio exceeding 43 percent, may be acceptable only if significant
compensating factors as discussed in HUD Handbook 4155.1 paragraph 4.F.3 are documented.

                                                          7
            investment in the property be verified and documented. While the file for loan
            number 3526129743 contained a HUD-1 settlement statement indicating that the
            borrower was required to pay $2,545 at closing, there was no bank statement,
            check, or other documentation to support that the borrower had adequate funds to
            close or made a payment at closing. As of August 31, 2011, the property has had
            a preforeclosure sale completed and HUD paid a claim of $176,888.

Judgment Paid With Loan
Proceeds

            MLD officials approved one loan without documenting that a court-ordered
            judgment had been paid before closing. While the file for loan number 352-
            6131878 indicated that the borrower had a $907 judgment that had to be paid
            before closing and available assets of $433, the borrower received $37,499 as part
            of a cash-out refinance, and the judgment was included on the HUD-1 as being
            paid off with proceeds from the refinanced FHA mortgage. HUD Handbook
            4155.1, REV-5, paragraph 2-3C, requires that court-ordered judgments be paid off
            before the mortgage loan is eligible for FHA insurance endorsement. In addition,
            FHA TOTAL Mortgage Scorecard User Guide, chapter 2, provides that evidence
            of payoff for any outstanding judgments shown on the credit report must be
            obtained before endorsement, and the desktop underwriting system used at MLD
            stated that as a condition of approval, evidence of payoff of the $907 debt should
            be in the file. However, other than the HUD-1 Settlement Statement reporting
            that the judgment would be paid off from the loan proceeds, there was no
            documentation in the loan file that the judgment had been satisfied.

Inadequate Verification of
Employment

            MLD officials did not adequately verify the employment history for three
            borrowers. HUD Handbook 4155.1, section 2-6, requires the lender to verify a
            borrower’s employment for the most recent 2 full years with a recent pay stub and
            written or oral verification of employment, and for the borrower to explain any
            gaps in employment of a month or more. The file for loan number 352-6060237
            did not contain adequate verification of employment for the borrower’s two
            employers because there was no verification of employment. A pay stub from
            one employer for the period ending November 15, 2008 had a handwritten note on
            it stating “November 2007” and a 2007 W-2. For the second employer, there was
            a pay stub for the period ending November 15, 2008 with a handwritten note
            stating “February 2008”.




                                            8
Approval of Ineligible Loans

            MLD officials approved two loans contrary to HUD regulations that prohibit a
            cash-out refinance if there were late payments or a skipped payment. Mortgagee
            Letter 05-43, dated October 31, 2005, requires a borrower to have made all
            mortgage payments within the month due for the previous 12 months to qualify for a
            cash-out refinance (that is, no loan payment may have been more than 30 days late
            and the loan must be current for the month due). However, MLD officials approved
            FHA loan number 352-6050094 as a cash-out refinance in which the borrower
            received $1,938 despite the fact that the loan file noted that the borrower’s first
            mortgage payoff statement contained late charges of $156 and the borrower’s
            second mortgage contained $43 in charges, the nature of which was not identified.

            HUD Handbook 4155.1, REV-5, prohibits lenders from allowing borrowers to
            skip payments. The borrower must either make the payment when it is due or
            bring the monthly mortgage payment due to settlement. When the new mortgage
            amount is calculated, FHA does not permit the inclusion of any mortgage
            payment skipped by the homeowner in the new mortgage amount. However,
            MLD officials allowed one borrower to include skipped conventional mortgage
            payments in the new FHA-insured loan. For loan number 352-6050094, the
            borrower skipped more than one mortgage payment for the first and second
            mortgages. The first mortgage closed on February 16, 2009 while the payoff
            statement listed the principal balance as of December 1, 2008. For the second
            mortgage, the borrower’s payoff statement listed interest due of $870 while the
            credit report listed a monthly second mortgage payment of $233.

Other Deficiencies

            Other underwriting deficiencies related to unsupported fees, that were not
            considered material, are listed in the following chart.

             Loan number         Unsupported          Unsupported
                                 lock-in fees        origination fee
              352-6551926           $699
              374-5629094                                $8,685
              352-6050094            $699
              352-6197448            $699
              352-6255426            $699
              352-6068180            $699
              352-6060237            $699
              352-6269737            $635
              352-6278237            $699
              352-5829040            $699
              352-6086467            $699
                 Total              $6,926               $8,685

                                              9
            MLD officials charged 10 borrowers unsupported lock-in fees. In nine cases, the
            fee was charged without written justification as required by HUD Handbook
            4155.1, paragraph 1A(3)(b), which provides that lenders may charge a
            commitment fee to guarantee, in writing, the interest rate and any discount points
            for a specific period or to limit the extent to which the interest rate or discount
            points may change. MLD officials also charged one borrower a lock-in fee when
            the lock-in date was the date of the closing. HUD Handbook 4155.1, paragraph
            1A(3)(b), further states that the minimum time for lock-ins or rate locks is 15 days
            and the loan may close in less than 15 days at the convenience of the borrower.
            For loan number 352-6551926, the borrower was charged a $699 commitment fee
            and executed a lock-in agreement that was dated on the closing date of November
            19, 2009, without documentation to support that the lock-in fee was charged for
            the borrower’s convenience.

            MLD officials charged a borrower a 2.8 percent origination fee at closing
            amounting to $13,609 and were unable to document that the amount over 1
            percent was customary. Of the 13 loans sampled which had an origination fee
            charged, only loan number 374-5629094 had an origination fee greater than 1
            percent. Therefore, we view the excess portion over 1 percent, which equates to
            $8,685, to be unsupported.

            Seller concessions were not listed on the HUD 1 as a reduction of the seller’s
            proceeds for two loans (numbers 374-5629094 and 374-5240680). For loan
            number 374-5629094, a $30,000 seller concession was listed on the HUD-1,
            summary of borrower’s transactions. However, the summary of seller’s
            transactions did not list the seller’s concession. The HUD 1 reported the cash to
            seller as $493,000; however, if a seller’s concession of $30,000 was included, the
            cash to seller would be $463,000. HUD Handbook 4155.1, REV-5, chapter 3,
            provides that all information must be verified and documented.


Incomplete Information in the
Loan File

            Mortgage payoff statements in the loan file for 15 of the loans reported different
            payoff amounts than those reported on the HUD-1. Specifically, the mortgage
            payoff statements reported a cumulative total of $7,587 more than the HUD-1 for
            14 loans and an understatement of $1,409 for one loan as compared to the HUD-
            1. Mortgagee Letter 92-5 prohibits a lender from processing loans without
            reconciling discrepancies in file documentation.

            It is also important to note that how the mortgage payoff occurred could affect the
            eligibility of the loan for FHA insurance for 3 of the 15 loans, which initial loan
            value totaled $939,660. While the loans were initially classified as non-cash-out
            refinance loans, they may have actually closed as a cash-out refinance loan, for

                                             10
                 which they would not have qualified. As noted in the table below, there was a
                 potential overstated payoff of $4,565 on the 3 loans, which in effect would have
                 made them cash-out loans.


                         Loan            Loan         Amount Due           Amount Due           Potential
                        number           Value         per Payoff          per HUD-1           Overstated
                                                       Statement                                 Payoff
                    352-6230998 430,402                 411,954               415,873             3,919
                    352-6060237 155,168                 143,461               143,851               390
                    352-6574991 $354,090                334,020               334,276             $ 256
                       Total    $939,660                889,435               894,000            $4,565

                 For loan number 352-6230998, while the borrower’s mortgage payoff statement
                 reported a total amount due on the loan of $411,954, the HUD-1 listed a payoff
                 amount of $415,873, or an overpayment difference of $3,919. When the cash
                 required at closing of $977 as listed on the HUD-1 is netted against the $3,919
                 potential overpayment, the borrower would be owed $2,942. However, since the
                 mortgage payoff statement also listed late charges of $274 (which were not
                 reported on the borrower’s credit report and should have been questioned), the
                 borrower would not have qualified for a cash-out refinance in accordance with
                 Mortgagee Letter 05-43. In addition, procedures in MLD’s quality control plan
                 required that loans be tested to determine whether the loans were closed and funds
                 disbursed in accordance with the underwriting and subsequent closing
                 instructions, that closing and legal documents were accurate and complete, and
                 that the HUD-l was accurately prepared and properly certified.

                 As a result, there was no assurance that documentation in the loan files accurately
                 and completely reported the manner in which the loans closed, funds may be due
                 to or from the borrowers, and loans may have been improperly classified as a non-
                 cash-out refinance loans. If misclassified, the loans would have been ineligible,
                 as such $405,5988 is considered unsupported.


    Conclusion

                 HUD Handbook 4155.1, REV-5, provides that approval of FHA-insured loans
                 requires adequate documentation based upon sound underwriting principles that a
                 borrower has the ability and willingness to repay the mortgage debt. MLD
                 officials did not always originate loans reviewed in compliance with HUD-FHA
                 underwriting requirements. We attribute this condition to weaknesses in MLD’s

8
  This amount is derived by adding $249,870 representing HUD’s potential loss related to loan 352-6230998
(applying HUD’s loss severity rate of 59 percent to the unpaid principal balance of $423,508) plus the $155,728
claim amount paid on loan 352-6574991. Loan 352-6060237 is not included since indemnification is being
requested based upon material underwriting deficiencies.


                                                        11
                 origination processes, which allowed underwriters to not exercise due diligence in
                 underwriting loans. As a result, the FHA insurance fund incurred an actual loss of
                 $176,988 for a claim paid on one loan and is at risk for potential losses of more
                 than $2.7 million on 13 loans. In addition, MLD officials charged borrowers
                 unsupported fees of $15,611 and inadequately supported mortgage payoffs of
                 $8,996 ($7,587 in overfunded and $1,409 in underfunded mortgage payoffs). We
                 attribute these deficiencies to MLD official’s unfamiliarity with HUD-FHA
                 underwriting regulations.

    Recommendations

                 We recommend that HUD’s Deputy Assistant Secretary for Single Family
                 Housing require MLD officials to

                 1A. Indemnify HUD for potential losses on the 13 loans with material underwriting
                     deficiencies. The estimated loss to HUD, based on its most recent default loss
                     rate of 59 percent9 of the unpaid principal balance, is $2,756,325 (See
                     Appendix D).

                 1B. Reimburse the FHA insurance fund $176,988 for a claim paid on loan number
                     352-6129743.

                 1C. Obtain documentation to support the $15,611 in unsupported fees and if
                     adequate documentation cannot be provided, reimburse the borrowers.

                 1D. Obtain documentation to support $8,996 ($7,587 overfunded and $1,409
                     underfunded) in inadequately supported mortgage payoffs. If supporting
                     documentation is not obtained, the FHA insurance fund should be reimbursed
                     $7,587, and $1,409 should be collected from the borrower.

                 1E. Determine whether the unsupported $405,598 related to the three loans with
                     potential overpayments were ineligible as cashout refinances, and if so
                     determined, indemnify the FHA insurance fund $249,870 and repay the claim
                     paid of $155,728.

                 1F. Implement additional controls to ensure that all future FHA-insured loans are
                      approved in accordance with HUD-FHA requirements.




9
 The loss severity rate of 59 percent represents HUD’s average loss experience for fiscal year 2010 on properties
sold through its real estate-owned inventory as supported by the Single Family Acquired Asset Management
System’s case management profit and loss by acquisition data as of September 2010.

                                                        12
Finding 2: MLD Officials Did Not Implement Their Quality Control
           Plan in Accordance With HUD-FHA Requirements
While MLD officials established a quality control plan that complied with HUD-FHA
requirements, the officials did not ensure that the plan was implemented in accordance with
HUD-FHA’s or its own requirements. Specifically, MLD officials did not ensure that (1) the
reviews included loans that defaulted within the first 6 months, (2) deficiencies identified with
rejected loans were reported to management for follow-up and corrective action, and (3)
documentation to support the frequency and results of required annual reviews of branch offices
was maintained. These deficiencies occurred because MLD officials had not established
adequate controls to ensure that the quality control plan was properly implemented.
Consequently, the effectiveness of MLD’s quality control plan to identify systemic problems,
initiate appropriate corrective action, and reduce unnecessary risk to the FHA insurance fund was
weakened.



     Quality Control Plan in
     Compliance With HUD-FHA
     Requirements

                   MLD’s most recent written quality control plan complied with HUD-FHA
                   requirements. HUD Handbook 4060.1, REV-2, chapter 7, requires all FHA-
                   approved lenders to implement and continuously have in place a quality control
                   plan for the origination and servicing of insured mortgages as a condition of
                   receiving and maintaining FHA approval. This chapter also provides that quality
                   control must be a prescribed and routine function of each lender’s operations,
                   whether performed by a lender’s staff or an outside source.

                   During the review period, MLD’s routine quality control reviews were conducted
                   externally by a quality control contractor, and MLD used three different quality
                   control contractors during the period. One firm conducted the reviews until June
                   2009 when MLD officials contracted with another firm, which conducted the
                   reviews through April 2010. Beginning in May 2010, a different firm began
                   conducting the reviews. HUD’s Quality Assurance Division10 conducted a review
                   of MLD in June 2010, after which MLD agreed to update its quality control plan
                   to address deficiencies cited.




10
     HUD’s Quality Assurance Division is responsible for monitoring the performance of FHA approved lenders.

                                                        13
Quality Control Plan Not
Implemented in Accordance
With HUD-FHA Requirements

            MLD officials did not ensure that their quality control plan was implemented in
            accordance with HUD-FHA’s and its own requirements. Specifically, MLD
            officials did not ensure that (1) the reviews included loans that defaulted within
            the first 6 months, (2) deficiencies identified with rejected loans were reported to
            management for follow-up and corrective action, and (3) documentation to
            support the frequency and results of required annual reviews of branch offices
            was maintained.

Loans Defaulting Within the
First 6 Months Not Reviewed


            While MLD’s quality control plan provided that all loans with payment defaults
            occurring within the first 6 months of origination would be selected for review as
            required by HUD Handbook 4060.1, REV-2, paragraph 7-6D, not all loans that
            defaulted within the first 6 months were reviewed by MLD’s quality control
            consultant. Three loans that defaulted within 6 months that were contained in the
            sampled loans were not reviewed. An MLD official confirmed that MLD
            provided its quality control consultant closed and rejected loans monthly but not
            loans that went into default within 6 months. As a result, MLD management did
            not have the opportunity to determine the root cause of these early payment
            defaults and implement proper corrective action, thus preventing the deficiencies
            from recurring.

Rejected Loan Deficiencies Not
Reported

            Deficiencies identified in rejected loans reviewed as part of the quality control
            process were not disclosed to MLD management for corrective action as required
            by HUD Handbook 4060.1, REV-2, paragraph 7-8A(1), which provides that a 10
            percent sampling of rejected loans be made to determine compliance with fair
            lending laws. In addition, HUD Handbook 4060.1, REV-2, paragraph 7-3I, states
            that review findings must be reported to the lender’s senior management within 1
            month of completion of the initial report. Management must take prompt action
            to deal appropriately with any material findings. The final report or an addendum
            must identify actions being taken, the timetable for their completion, and any
            planned follow-up activities. While one of the three monthly quality control
            reports selected for testing reported deficiencies with three of five rejected loans,
            the corresponding monthly quality improvement memorandum to management
            did not discuss these deficiencies. An MLD official said that MLD’s policy was

                                             14
             that rejected loans did not receive corrective action follow-up because they are
             regarded as low-risk since they were not submitted for FHA insurance. However,
             providing corrective action follow-up would ensure that rejected loans were
             properly underwritten.

Procedures for Branch Office
Site Visits Not in Compliance
With Regulations

             MLD officials did not conduct or document annual site visits of branch offices as
             prescribed by MLD’s quality control plan. HUD Handbook 4060.1, REV-2,
             paragraph 7-3G, provides that a lender’s offices, including traditional and
             nontraditional branch and direct lending offices engaged in origination or
             servicing of FHA-insured loans, must be reviewed annually to ensure their
             compliance with HUD-FHA requirements. In addition, the criteria used by the
             lender to determine the frequency of onsite reviews should be in writing and
             available for review by HUD at the corporate office. MLD’s quality control plan
             provided that annual onsite reviews would be performed by its quality control
             contractor and a report of such would be given to the MLD director of compliance
             and the Quality Assurance and Compliance Committee. However, during the
             review period, the branches received onsite reviews by MLD’s board chairman,
             and no report documenting the results was generated. By properly documenting
             annual site visits conducted and their corresponding selection criteria, MLD
             officials could better justify the visit’s purpose and determine whether all branch
             offices comply with HUD regulations.


Conclusion

             MLD officials had not established adequate controls to ensure that their quality
             control plan was implemented in accordance with HUD-FHA requirements. As a
             result, MLD officials did not have the opportunity to consider follow-up and
             corrective action for potential deficiencies in loans that defaulted within the first 6
             months and for rejected loans. Also, the results of branch office reviews were not
             documented. These deficiencies occurred because MLD officials had not
             established adequate controls to ensure that the quality control plan was properly
             implemented. Consequently, MLD officials may have missed the opportunity to
             prevent systemic deficiencies and reduce unnecessary risk to the FHA insurance
             fund.


Recommendations

             We recommend that HUD’s Deputy Assistant Secretary for Single Family
             Housing require MLD officials to

                                               15
2A. Implement procedures to ensure that loans that default within the first 6
    months of origination are tested during monthly quality control reviews as
    required by HUD regulations and MLD’s quality control plan.

2B. Implement procedures to ensure that deficiencies found in rejected loans
    during monthly quality control reviews are reported to MLD officials for
    corrective action as required by HUD regulations and MLD’s quality control
    plan.

2C. Strengthen procedures to ensure that annual reviews of branch offices are
    conducted and documented as prescribed by MLD’s quality control plan.




                               16
                            SCOPE AND METHODOLOGY

We reviewed MLD because its default rate was twice that of the statewide average for loans with
beginning amortization dates between February 1, 2009, and January 31, 2011. To accomplish
the audit objectives, we reviewed HUD Handbook 4060.1, REV-2, applicable mortgagee letters,
and reports of MLD reviews conducted by HUD’s Quality Assurance Division. We reviewed
MLD’s policies and procedures for processing and underwriting loans and interviewed its staff to
obtain an understanding of its quality control process and other internal control procedures.

To assess MLD’s underwriting compliance with HUD-FHA regulations, we identified loans
reported in HUD’s Neighborhood Watch System as originated or sponsored by MLD during the
period February 1, 2009, through January 31, 2011, and selected a nonstatistically based sample
of 25 loans valued at more than $8.9 million. We used the loan data in HUD’s Neighborhood
Watch System for informational purposes. To ensure the integrity of the data relevant to our audit
objectives, we performed a minimal level of testing and found the data to be sufficiently reliable for
our purpose. This testing consisted of reconciling the loan amount, closing date, front and back
ratios, the presence of gifts, among other items, to source documents.

The loans were selected considering the following factors, which are mutually exclusive: default
after the borrower had made 13 or fewer payments, presence of gift funds, and a back ratio
greater than 49 percent. Twenty-three loans were electronically underwritten by the Federal
National Mortgage Association’s Desktop Underwriter11, and two loans were manually
underwritten. We reviewed MLD’s files for these 25 loans to assess the extent to which the loans
were originated in accordance with HUD-FHA regulations, requested independent verification of
borrower employment and gift receipts, and discussed potential deficiencies with MLD officials.

To assess MLD’s quality control process, we randomly selected 3 of 12 quality control review
reports conducted by MLD’s consultant during the period June 2010 through May 2011 to
analyze the timeliness and adequacy of the monthly reviews and the effectiveness of
management follow-up on deficiencies reported. We did not select quality control reviews
conducted before this time because other consultants performed those reviews and MLD had
already taken action to address deficiencies reported in its prior process.

We performed the audit fieldwork from June through October 2011 at MLD’s main office
located at 30B Vreeland Road, Florham Park, NJ. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




11
  The Federal National Mortgage Association Desktop Underwriter is an automated system that evaluates a
borrower’s credit worthiness and indicates a recommended level of underwriting and documentation needed to
determine a loan’s eligibility for FHA insurance.

                                                      17
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                      Loan origination process - Policies and procedures established by
                      management to ensure that FHA-insured loans are originated in accordance
                      with HUD-FHA requirements.

                      Quality control process - Policies and procedures established by
                      management to ensure that a quality control plan has been implemented and
                      related reviews are performed in accordance with HUD-FHA requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 18
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                    MLD officials did not ensure that FHA-insured loans were approved in
                    accordance with HUD-FHA requirements (see finding 1).

                    MLD officials did not adequately implement a quality control plan that
                    ensured compliance with HUD-FHA requirements (see finding 2).




                                              19
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

        Recommendation            Ineligible 1/   Unsupported 2/      Funds to be put
               number                                                 to better use 3/
                      1A                                                  $2,756,325
                      1B             $176,988
                      1C                             $ 15,611
                      1D                                8,996
                     1E             ________          405,598             _________
                    Total            $176,988        $430,205             $2,756,325

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if HUD implements our
     recommendations to indemnify the 13 loans exhibiting material underwriting
     deficiencies, it will reduce FHA’s risk of loss to the insurance fund. The amount above is
     derived by applying HUD’s default loss rate of 59 percent to the loans’ unpaid principal
     balance of $4,671,738 as of August 31, 2011 (see appendix D).




                                             20
Appendix B

       AUDITEE COMMENTS AND OIG’S EVALUATION


     Ref to OIG Evaluation        Auditee Comments




Comment 1




                             21
Comment 1




Comment 2




Comment 3




Comment 3




            22
Comment 4




Comment 5




Comment 6




            23
Comment 7




Comment 8




Comment 9




            24
Comment 10




             25
                 OIG Evaluation of Auditee Comments

COMMENT 1   MLD officials reasoning as to why loans became delinquent is based upon
            its loan servicers’ reporting of default reasons, which we did not verify. In
            addition, while delinquencies may have been impacted by the economic
            downturn, there is no documented reason to suspect that loans
            underwritten by MLD Mortgage, Inc. would have been more severely
            impacted than those underwritten by other entities within the state of New
            Jersey. Accordingly, MLD Mortgage, Inc.’s default rate of 8.88, which
            was nearly double the state-wide average, represented a valid indicator of
            potential risk and cause to review MLD Mortgage, Inc.’s underwriting
            compliance with HUD/FHA requirements.

COMMENT 2   While MLD Mortgage, Inc.’s board chairman conducted quality control
            reviews of its branch office, this did not comply with its quality control
            plan that provided that the quality control contractor would perform the
            reviews and provide a written report of the results. Further, as
            acknowledged by MLD officials, the reviews performed by the board
            chairman were not formally documented.

COMMENT 3   As mentioned in the finding, MLD’s on-site quality control review results
            were not documented in reports and provided to management so that
            systemic deficiencies could be addressed. However, MLD officials stated
            that changes to the branch office onsite monitoring will be considered. In
            addition, while MLD officials considered the deficiencies applicable to the
            rejected loans to be immaterial they have now included rejected loan
            deficiencies in the management response and mandated further training.
            These actions are responsive to our recommendation.

COMMENT 4   MLD officials stated that they hired an individual to conduct a second
            level review of all underwritten loans in December 2009; which should
            significantly strengthen its controls over underwriting if implemented as
            stated. However, this second level review was not in place for 12 out of
            the 14 loans cited with material deficiencies. Nevertheless, because of the
            weaknesses in underwriting identified in our findings, we stand by our
            conclusion that the company did not have adequate internal controls to
            ensure that all FHA loans were approved in accordance with HUD-FHA
            requirements.

COMMENT 5   MLD officials contend that all settlement dates were requested by the
            borrowers for their convenience; however, there is no documentation in
            the files to support this statement.

COMMENT 6   MLD officials stated that the judgment was reflected as being paid with
            part of the loan proceeds and duly noted on the HUD-1 Settlement
            Statement. MLD officials also stated that HUD Handbook 4155.1, REV-

                                     26
             5, paragraph 2-3C, requires that court ordered judgments be paid off
             before the loan is eligible for insurance. The officials note that the loan
             settled on February 25, 2009, and was endorsed for insurance on April 27,
             2009, thus having been paid more than two months prior to receiving
             endorsement. We agree with the officials reading of HUD Handbook
             4155.1, REV-5, paragraph 2-3C, but contend that the HUD-1 Settlement
             Statement is not adequate documentation that the judgment was paid off.
             In addition, the officials did not address the issue that the loan file did not
             contain documentation that the judgment was paid off as a condition of the
             loan’s approval as required by their desktop underwriting system. Further,
             the loan file did not contain sufficient written explanation from the
             borrower about the judgment as required by Handbook 4155.1, REV-5,
             paragraph 2-3. Accordingly, the underwriting deficiency will remain in
             the report.

COMMENT 7    MLD officials have not provided adequate documentation that the
             borrower had not incurred late charges prior to the loan’s closing on May
             8, 2009. The officials refer to information contained in a monthly
             mortgage payment coupon dated as of January 29, 2009; however, the
             deficiency is based upon information contained in the actual mortgage
             payoff statement dated April 16, 2009 found in the loan file, which listed
             uncollected late charges.

COMMENT 8    Further review of the loan file disclosed that the underwriter had correctly
             calculated the debt to income ratio using the total proposed housing
             payment. Therefore, we agree with MLD officials’ comment and removed
             this case from the final report.

COMMENT 9    MLD officials stated that the underwriter calculated the borrower’s
             income based upon a 40 hour work week as noted on the borrower’s two
             most recent paystubs. However, we calculated the income based upon a
             37.5 work week as reported in the written verification of employment
             contained in the loan file. However, the loan file also contained a verbal
             verification of employment dated subsequent to the paystubs that stated
             the borrower was a part time employee. Accordingly, the underwriter
             should have obtained clarification for this conflicting information.

COMMENT 10   Our findings were based upon interviews, detailed analyses of loan files
             and MLD procedures, and comparison with HUD regulations. The
             questioned loans did not meet the threshold for insurability. As noted, we
             have considered the comments MLD officials provided for 4 of the 15
             loans originally cited for material underwriting deficiencies and removed
             one loan previously reported as having a material underwriting deficiency.
             However, since MLD officials did not address the remaining 11 loans, no
             other adjustments to the report were made.



                                       27
     Totals
                                                                      number
                                                                      FHA case




              352-6086467
              352-6127981
              352-5829040
              352-6269737
              352-6060237
              352-6131878
              352-6255426
              352-6632782
              352-6129743
              352-6268357
              352-6050094
              374-5629094
              352-6328972
              374-5539758
                                                                                                                                                             Appendix C




     6
              X
                                      X
                                                                  X




                                                  X
                                                  X
                                                              X
                                                                      Incorrect or inadequate
                                                                      calculation of income or liabilties




     4
                  X
                                          X
                                                          X
                                                              X
                                                                      Inadequate verification of earnest
                                                                      money deposit




     2
                                          X
                                                                  X
                                                                      Inadequate documentation of gifts




     4




28
                      X
                                              X
                                                  X
                                                              X
                                                                      Inadequate verification of assets or
                                                                      funds to close




     1
                                  X
                                                                      Judgment paid with loan proceeds




     3
                      X
                              X
                                                              X



                                                                      Inadequate verification of
                                                                      employment




     2
                          X
                                                                      Approval of cash-out refinance
                                                      X




                                                                      loan with late payments
                                                                                                             SUMMARY OF MATERIAL UNDERWRITING DEFICIENCIES
Appendix D

SCHEDULE OF ACTUAL AND POTENTIAL LOSSES TO THE
             FHA INSURANCE FUND

                           Number
                           of
                           payments
                           before     Original     Unpaid                    Potential loss to HUD
FHA case      Settlement   first      loan         principal                 (59 percent of unpaid
number        date         default    amount       balance      Claim paid   principal balance)

374-5539758   1/12/2010    4          $589,132     $585,487                  $345,437

352-6328972   8/19/2009    4          $323,259     $321,833                  $189,881

374-5629094   3/26/2010    2          $490,943     $487,681                  $287,732

352-6129743   3/11/2009    7          $333,485     $0           $176,988     $0

352-6050094   2/20/2009    7          $363,247     $358,792                  211687

352-6632782   1/27/2010    8          $245,471     $243,234                  $143,508

352-6255426   4/21/2009    9          $502,645     $497,117                  $293,299

352-6131878   2/20/2009    10         $274,725     $269,421                  $158,958

352-6060237   2/11/2009    11         $155,168     $153,159                  $90,364

352-6269737   5/8/2009     12         $194,342     $190,735                  $112,534

352-5829040   1/17/2009    13         $607,413     $597,684                  $352,634

352-6127981   2/11/2009    14         $325,752     $315,048                  $185,878

352-6086467   5/29/2009    14         $358,160     $351,968                  $207,661

352-6268357   6/10/2009    14         $304,385     $299,579                  $176,752
Total                                 $5,068,127   $4,671,738   $176,988     $2,756,325




                                                        29
Appendix E

                        CASE SUMMARY NARRATIVES

 FHA case number: 374-5539758

 Loan amount: $589,132

 Loan purpose: Purchase

 Settlement date: January 12, 2010

 Status as March 15, 2011: Special forbearance

 Payments before first default reported: Four

 Summary: The loan evidenced underwriting deficiencies relating to incorrect calculation of
 income and liabilities and inadequate documentation of gifts.

 Incorrect Calculation of Income and Liabilities

 MLD officials used an 11.75 monthly average of overtime and “other” income (reported on the
 verification of employment as “locality, overtime meals, adjustments, and Saturday pay”) to
 develop the borrower’s monthly income. While this process resulted in a $2,172 monthly
 overtime and $389 monthly “other” income, we calculated the income based upon a 2-year
 average based upon income data reported in the verification of employment. This calculation
 resulted in a monthly overtime income of $1,695 and “other” income of $368, which was $497
 less than that used to qualify the borrower. Additionally, MLD officials understated the
 borrower’s monthly rental income by $212 because they applied the 85 percent vacancy rate as
 required by HUD Handbook 4155.1, paragraph 4.E.4b to the $3,200 monthly rent reported by the
 borrower as opposed to the $3,450 monthly rent documented in the property appraisal. MLD
 officials stated that the underwriter applied the 85 percent vacancy or collection loss to a
 monthly rent of $1,600 for two units, while we applied the same percentage to the $2,932
 monthly rent according to the property appraisal. The net result of the overstatement and
 understatement of estimated borrower monthly income was an overstatement of $285.

 MLD officials also did not include a $246 monthly payment for a deferred education loan as a
 liability of the borrower. A credit report in the loan file reported that the borrower had an
 education loan that was deferred until May 6, 2010, with the first payment due December 6,
 2010. Since the loan closing was scheduled for January 12, 2010, the first payment on the
 educational loan would be within 1 year of the loan’s closing date and should have been
 considered when calculating the borrower’s liabilities. The incorrect calculation of income and
 liabilities would cause the borrower’s front and back ratios to increase from 39.52 and 54.71
 percent to 40.92 and 59.71 percent, respectively.

                                                 30
HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 4D(2)(b), provides that overtime income can be used to
qualify a borrower if the income was received for the past 2 years and is likely to continue. If the
employment verification states that the overtime and bonus income is unlikely to continue, it
may not be used in qualifying. The lender must develop an average of bonus or overtime income
for the past 2 years. Periods of overtime and bonus income of less than 2 years may be
acceptable, provided the lender can justify and document in writing the reason for using the
income for qualifying purposes. HUD Handbook 4155.1, paragraph 4.E.4b provides that 85
perecnt of rental income reported in the property appraisal be used to calculate income in order
to account for vacancy and collection loss.

HUD Handbook 4155.1, paragraph 4C(6)(a), requires that debt payments, such as a student loan
or balloon note, scheduled to begin or come due within 12 months of the mortgage loan closing
be included by the lender as anticipated monthly obligations during the underwriting analysis. In
addition, HUD Handbook 4155.1, paragraph 4C(4)(b), provides that when computing the back
ratio, recurring obligations such as monthly housing expenses and additional recurring charges
extending 10 months or more must be considered.

HUD Handbook 4155.1 paragraph 4.F.3 provides that a front ratio exceeding 31 percent, and a
back ratio exceeding 43 percent, may be acceptable only if significant compensating factors are
documented.

Inadequate Documentation of Gifts

Gift documentation in the loan file did not adequately support that the funds provided on
December 16, 2009, were those of the donor. The donor’s bank statement obtained by MLD
reported that the donor deposited $8,500 on December 04, 2009, and that the donor’s account
balance was $373 before the $8,500 deposit and $552.67 after the gift withdrawal. In addition,
the gift letter did not include the property’s address.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 5B(4)(d), provides that regardless of when gift funds are
made available to a borrower, the lender must be able to determine that the gift funds were not
provided by an unacceptable source and were the donor’s own funds.




                                                31
FHA case number: 352-6328972

Loan amount: $323,259

Loan purpose: Purchase

Settlement date: August 19, 2009

Status as March 15, 2011: First action to commence foreclosure

Payments before first default reported: Four

Summary: The loan evidenced underwriting deficiencies relating to inadequate verification of
earnest money, assets, employment, and liabilities.

Inadequate Verification of Earnest Money

The loan file lacked documentation showing that the source of an earnest money deposit of
$11,741, representing 3.5 percent of the sales price, provided at closing was adequately analyzed
and verified.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 5B(2)(a), provides that if the amount of an earnest money
deposit exceeds 2 percent of the sales price or appears excessive based on the borrower’s history
of accumulating savings, the lender must verify and document the source of the funds.
Satisfactory documentation includes a copy of the borrower’s cancelled check, certification from
the deposit holder acknowledging receipt of funds, or separate evidence of the source of funds.
Separate evidence includes a verification of deposit or bank statement showing that the average
balance was sufficient to cover the amount of the earnest money deposit at the time of the
deposit.

Inadequate Verification of Assets

The file contained two bank statements, dated March 31 and April 30, 2009, which reported a
beginning and ending balance of $19,893. Since the loan’s closing date was August 19, 2009,
the March 31, 2009, bank statement and 21 of 30 days of the April 30, 2009, bank statement
were more than 120 days old.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 1B(1)(h), provides that at loan closing, all documents in the
mortgage loan application may not be more than 120 days old, or 180 days old for new
construction.




                                               32
Inadequate Verification of Employment
Incorrect or Inadequate Calculation of Liabilities

The loan file contained a 2008 tax return transcript, dated April 27, 2009, that reported a $25,650
tax liability for the self-employed borrower. However, the file also contained additional Internal
Revenue Service correspondence disclosing that the borrower filed an amended 2008 return in
June 2009; however, there was no documentation showing that MLD officials obtained a copy of
the amended return or determined whether the borrower had an outstanding tax liability, which
could have negatively affected the borrower’s assets to close and ability to make timely
mortgage payments.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 4D(4)(d), requires that self-employed borrowers provide
signed and dated individual tax returns with all applicable tax schedules for the most recent 2
years, a year-to-date profit and loss statement, and a balance sheet. HUD Handbook 4155.1,
paragraph 1B(1)(g), requires that the mortgage loan application package contain all
documentation that supports the lender’s decision to approve the mortgage loan. When standard
documentation does not provide enough information to support the approval decision, the lender
must provide additional, explanatory statements that are consistent with information in the
application. The explanatory statements must clarify or supplement the documentation
submitted by the borrower.




                                                33
FHA case number: 374-5629094

Loan amount: $490,943

Loan purpose: Purchase

Settlement date: March 26, 2010

Status as March 15, 2011: Delinquent

Payments before first default reported: Two

Summary: The loan evidenced an underwriting deficiency relating to inadequate verification of
an earnest money deposit.

Inadequate Verification of an Earnest Money Deposit

While the HUD-1, dated March 26, 2010, listed a $15,000 earnest money deposit, representing 3
percent of the sales price, there was no documentation to support that it was deposited or its
source. While the file contained a coborrower’s bank statement listing a $15,000 withdrawal on
January 26, 2010, it did not contain a corresponding check to support to whom the check was
written, the date received, or the source of the deposit at the time of closing.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 5B(2), provides that if the amount of any earnest money
deposit exceeds 2 percent of the sales price or appears excessive based on the borrower’s history
of accumulating savings, the lender must verify and document the deposit amount and the source
of funds. Satisfactory documentation includes a copy of the borrower’s cancelled check,
certification from the deposit holder acknowledging receipt of funds, or separate evidence of the
source of funds. Separate evidence includes a verification of deposit or a bank statement
showing that the average balance was sufficient to cover the amount of the earnest money
deposit at the time of the deposit.




                                               34
FHA case number: 352-6050094

Loan amount: $363,247

Loan purpose: Cash-out refinance

Settlement date: February 20, 2009

Status as March 15, 2011: Bankruptcy – court clearance obtained

Payments before first default reported: Seven

Summary: The loan evidenced underwriting deficiencies relating to incorrect calculation of
liabilities and approval of an ineligible loan.

Incorrect Calculation of Liabilities

MLD officials understated borrower monthly liabilities by $169. As shown below, various
errors caused MLD officials to calculate monthly liabilities of $581 as opposed to $750.

Liabilities as calculated in the file:                 $581
Less liabilities removed because they were
  reported as paid on the HUD-1:                       <$ 92>
Add liabilities added because they were
  reported as outstanding on the credit report:         261
Recalculated liabilities:                              $750

This understatement caused the back ratio to increase from 56.96 to 59.91 percent.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 4C(4)(b), provides that when computing the debt-to-income
ratio, the lender must include recurring obligations such as monthly housing expense and
additional recurring charges extending 10 months or more, such as payments on installment
accounts, child support or separate maintenance payments, revolving accounts, and alimony.

HUD Handbook 4155.1 paragraph 4.F.3 provides that a front ratio exceeding 31 percent, and a
back ratio exceeding 43 percent, may be acceptable only if significant compensating factors are
documented.

Approval of Ineligible Loan

Contrary to HUD-FHA underwriting requirements, the borrower was approved for a cash-out
refinance despite evidence in the file that the borrower had late payments on the refinanced
mortgage(s) and was permitted to skip payments. The refinance of the borrower’s first mortgage
was a $1,938 cash-out, while the payoff statement reported late charges of $156. The payoff

                                                  35
statement for the refinance of the borrower’s second mortgage reported charges of $42.64;
however, the nature of these charges was not indicated.

The payoff statements for both of the borrower’s mortgages disclosed that the borrower skipped
more than one mortgage payment before the closing. The first mortgage closed on February 16,
2009 while the payoff statement listed the principal balance as of December 1, 2008. For the
second mortgage, the borrower’s payoff statement listed interest due of $870 while the credit
report listed a monthly second mortgage payment of $233. As a result, the loan should not have
been approved as a cash-out refinance.

HUD-FHA Requirements

Mortgagee Letter 05-43, dated October 31, 2005, provides that a borrower must have made all of
his or her mortgage payments within the month due for the previous 12 months (that is, no payment
may have been more than 30 days late and the loan is current for the month due) to be eligible for a
cash-out refinance loan. Further, HUD Handbook 4155.1, REV-5, paragraph 1-10, prohibits lenders
from allowing borrowers to skip payments, and the borrower must either make the payment when it
is due or bring the monthly mortgage payment check to settlement because FHA does not permit the
inclusion of mortgage payments skipped in the new mortgage amount.

Mortgagee Letter 92-5 prohibits a lender from processing loans without reconciling
discrepancies in the file documentation. HUD Handbook 4155.1, REV-5, paragraph 3-1, states
that the mortgage loan application package must contain all documentation that supports the
lender’s decision to approve the mortgage loan. When standard documentation does not provide
enough information to support the approval decision, the lender must provide additional,
explanatory statements that are consistent with information in the application. The explanatory
statements must clarify or supplement the documentation submitted by the borrower.




                                                 36
FHA case number: 352-6268357

Loan amount: $304,385

Loan purpose: Purchase

Settlement date: June 10, 2009

Status as March 15, 2011: Ineligible for loss mitigation

Payments before first default reported: 14

Summary: The loan evidenced underwriting deficiencies relating to inadequate verification of
assets and an inadequate calculation of liabilities.

Inadequate Verfication of Assets

MLD officials did not obtain a 3-month banking history or sufficient documentation to show that
the borrower had the $12,717 needed to close on June 10, 2009. The file contained bank
statements, dated February 19 and March 20, 2009, and reported a balance of $1,619 as of March
20, 2009.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 5(B)(1)(A), provides that a borrower must have sufficient
funds to cover borrower-paid closing costs and fees at the time of settlement. Funds used to
cover the required minimum downpayment, as well as closing costs and fees, must come from
acceptable sources and must be verified and properly documented. HUD Handbook 4155.1,
paragraph 5B(2)(C)The lender must obtain a written verification of deposit and the borrower’s
most recent statements for all asset accounts to be used in qualifying. As an alternative to
obtaining a written verification of deposit, the lender may obtain from the borrower original asset
statements covering the most recent 3-month period. Provided that the asset statement shows the
previous month’s balance, this requirement is met by obtaining the two most recent, consecutive
statements. If the loan was TOTAL Scorecard-approved and a written verification of deposit is
not obtained, the lender may obtain a statement showing the previous month’s ending balance for
the most recent month. If the previous month’s balance is not shown, the lender must obtain
statements for the most recent 2 months to verify that there are sufficient funds to close.

Inadequate Calculation of Liabilities

The loan file contained discrepant information, which was not addressed or resolved. The
borrower’s bank statement in the file, dated February 19 to March 20, 2009, reported a $1,060
monthly mortgage payment; however, this potential liability was not reported on the borrower’s
credit reports, dated April 15 and April 24, 2009, or considered in the calculation of borrower
liabilities. If this liability were included, the borrower’s back ratio would rise from 49.75 to
72.25 percent.

                                                37
HUD-FHA Requirements

Mortgagee Letter 92-5 prohibits the lender from processing loans without reconciling
discrepancies in the file documentation. HUD Handbook 4155.1, paragraph 1B(1)(g), states that
the mortgage loan application package must contain all documentation that supports the lender’s
decision to approve the mortgage loan. When standard documentation does not provide enough
information to support the approval decision, the lender must provide additional, explanatory
statements that are consistent with information in the application. The explanatory statements
must clarify or supplement the documentation submitted by the borrower.

HUD Handbook 4155.1 paragraph 4.F.3 provides that a front ratio exceeding 31 percent, and a
back ratio exceeding 43 percent, may be acceptable only if significant compensating factors are
documented.




                                               38
FHA case number: 352-6129743

Loan amount: $333,485

Loan purpose: Refinance - no cash-out

Settlement date: March 11, 2009

Status as of August 31, 2011: Preforeclosure sale completed

Payment before first default reported: Seven

Summary: The loan evidenced underwriting deficiencies relating to inadequate verification of
funds to close.

Inadequate Verification of Funds To Close

The lender did not verify or document that the borrower had adequate funds to close. The HUD-
1 reported that the borrower was required to pay $2,545 at closing; however, there was no bank
statement or other documentation in the file to support that the borrower had adequate funds to
close or that the funds were received. Consequently, HUD lacked assurance that the borrower
provided the required funds to close.

HUD-FHA Requirements

HUD Handbook 4155.1, REV-5, section 2-10, requires that all funds for the borrower’s
investment in the property be verified and documented.

HUD Handbook 4155.1, REV-5, paragraph 5B(1)(a), states the borrower must have sufficient
funds to cover borrower-paid closing costs and fees at the time of settlement.




                                               39
FHA case number: 352-6632782

Loan amount: $245,471

Loan purpose: Purchase

Settlement date: January 27, 2010

Status as of August 31, 2011: Delinquent

Payment before first default reported: Eight

Summary: The loan evidenced underwriting deficiencies relating to inadequate documentation
of a gift and an earnest money deposit.

Inadequate Documentation of Gifts

The loan file contained a gift letter and cashier’s check for $8,750 from the donor, dated
November 12, 2009. The file also contained a copy of the donor’s bank statement that reported a
balance of $121 as of November 12, 2009, and an $8,750 deposit on November 13, 2009, which
was withdrawn the same day. This discrepant information was not explained.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 5B(4)(d), provides that regardless of when gift funds are
made available to a borrower, the lender must be able to determine that the gift funds were
provided by an acceptable source and were the donor’s own funds..

Inadequate Verification of Earnest Money Deposit

The HUD-1 showed an earnest money deposit of $8,750, which exceeded 2 percent of the
$250,000 sales price. The file did not contain adequate supporting documentation for the earnest
money deposit.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 5B(.2)(a), provides that a lender must verify and document
the deposit amount and source of funds if the amount of the earnest money deposit exceeds 2
percent of the sales price or appears excessive based on the borrower’s history of accumulating
savings. HUD Handbook 4155.1, paragraph 1B(1)(g), further provides that when standard
documentation does not provide enough information to support the approval decision, the lender
must provide additional, explanatory statements that are consistent with information in the
application. The explanatory statements must clarify or supplement the documentation
submitted by the borrower.




                                               40
FHA case number: 352-6255426

Loan amount: $502,645

Loan purpose: Refinance no cash-out

Settlement date: April 21, 2009

Status as of August 31, 2011: First legal action to commence foreclosure

Payment before first default reported: Nine

Summary: The loan evidenced an underwriting deficiency relating to incorrect calculation of
income.

Incorrect Calculation of Income

The borrower’s monthly employment income listed on the FHA Loan underwriting and
transmittal summary was $5,893; however, calculation of the monthly employment income
based on the written verification of employment was $5,525. Therefore, monthly income was
overstated by $368. As a result of the incorrect income calculation, the borrower’s front ratio
increased from 42.77 to 44.76 percent, and the back ratio increased from 44.52 to 46.60 percent.

HUD-FHA Requirements

FHA TOTAL Mortgage Scorecard User Guide, chapter 1, provides that the lender is responsible
for the integrity of the data used to obtain the risk assessment and for resubmitting the loan when
material changes are discovered or otherwise occur during loan processing.

FHA TOTAL Mortgage Scorecard User Guide, chapter 2, states that the lender is responsible for
documenting and verifying the accuracy of the amount of the income being reported.

HUD Handbook 4155.1 paragraph 4.F.3 provides that a front ratio exceeding 31 percent, and a
back ratio exceeding 43 percent, may be acceptable only if significant compensating factors are
documented.




                                                41
FHA case number: 352-6131878

Loan amount: $274,725

Loan purpose: Refinance cash-out

Settlement date: February 20, 2009

Status as of August 31, 2011: Special forbearance

Payment before first default reported: 10

Summary: The loan evidenced underwriting deficiency relating to a judgment paid with loan
proceeds.

Judgment Paid With Loan Proceeds

The loan was processed as a cash-out refinance with the borrower receiving $37,499 at closing.
However, a credit report, dated December 17, 2008, listed a judgment in the amount of $907,
while at the same time, the file documentation reported that borrower assets were $433. The
judgment was included on the HUD-1 and paid off with the new FHA-insured mortgage contrary
to HUD-FHA requirements. However, other than the HUD-1 Settlement Statement reporting
that the judgment would be paid off from the loan proceeds, there was no documentation in the
loan file that the judgment had been satisfied.

HUD-FHA Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3C, requires that court-ordered judgments be paid
off before the mortgage loan is eligible for FHA insurance endorsement, and FHA Total
Mortgage Scorecard User Guide, chapter 2, provides that evidence of the payoff for any
outstanding judgments shown on the credit report must be obtained before endorsement.
Further, the desktop underwriting system used by MLD officials noted that that evidence of the
payoff of the $907 debt needed to be in the loan file as a condition of the loan approval.




                                              42
FHA case number: 352-6060237

Loan amount: $155,168

Loan purpose: Refinance no cash-out

Settlement date: February 11, 2009

Status as of August 31, 2011: First legal action to commence foreclosure

Payment before first default reported: 11

Summary: The loan evidenced an underwriting deficiency related to inadequate support for
employment.

Inadequate Support for Employment

The loan file did not have written or verbal verifications of employment for the borrower’s two
current employers as required. For the first employer, there was a pay stub for the period ending
November 15, 2008, with a handwritten note stating “November 2007” and a 2007 W-2. For the
second employer, there was a pay stub for the period ending November 15, 2008, with a
handwritten note stating “February 2008.” Consequently, the borrower’s employment was not
verified as required.

HUD-FHA Requirements

FHA TOTAL Mortgage Scorecard User Guide, chapter 2, states that the lender must obtain the
single most recent pay stub (showing year-to-date earnings of at least 1 month) and any of the
following to verify current employment: written verification of employment, verbal verification
of employment (lender or service provider must document the individual verifying the
employment), or electronic verification acceptable to FHA.




                                               43
FHA case number: 352-6269737

Loan amount: $194,342

Loan purpose: Refinance cash-out

Settlement date: May 8, 2009

Status as of August 31, 2011: Delinquent

Payment before first default reported: 12

Summary: The loan evidenced an underwriting deficiency related to approval of a cash-out
refinance with late payments.

Approval of Ineligible Loans

The HUD-1, dated March 26, 2009, reported cash back to the borrower of $1,151. However, the
mortgage payoff statement in the file listed uncollected late charges of $49.69, which were not
listed on the credit report. There was no indication in the file that an explanation was obtained
for this conflicting information; if there were late mortgage payments, the borrower would not
have been eligible for a cash-out refinance loan.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 3B(2)(b), provides that borrowers, who are delinquent, are in
arrears, or have suffered any mortgage delinquencies within the most recent 12-month period
under the terms and conditions of their mortgages, are not eligible for cash-out refinances.

Mortgagee Letter 92-5 prohibits the lender from processing loans without reconciling
discrepancies in the file documentation.




                                               44
FHA case number: 352-5829040

Loan amount: $607,413

Loan purpose: Refinance no cash-out

Settlement date: January 17, 2009

Status as of August 31, 2011: Delinquent

Payment before first default reported: 13

Summary: The loan evidenced underwriting deficiencies relating to inadequate support for
employment and inadequate verification of assets.

Inadequate Verification of Employment

The file contained a written verification of employment from the borrower’s current employer
(dated October 16, 2008) with a hire date of January 2, 2008. In addition, there were two verbal
verifications of employment from the current employer (dated November 26, 2008, and January
16, 2009) reporting a hire date of March 2008 and January 2, 2008, respectively. The final loan
application (dated January 17, 2009) showed that the borrower worked for the prior employer
from November 5, 2005, to September 3, 2007; however, the file did not contain a verification of
employment for this prior employer. As a result, we could not determine the borrower’s 2-year
employment history as required.

HUD-FHA Requirements

HUD Handbook 4155.1, section 2-6, states that the lender must verify the borrower’s
employment for the most recent 2 full years. In addition, the borrower must explain any gaps in
employment spanning 1 month or more.

Mortgagee Letter 92-5 prohibits a lender from processing loans without reconciling
discrepancies in the file documentation.

Inadequate Verification of Assets or Funds To Close

The loan file contained the following bank statements: July 28 to August 26, 2008, August 27 to
September 25, 2008, and November 25 to December 26, 2008. We excluded the bank statement
for July 28 to August 26, 2008, because the statements were more than 120 days old. Therefore,
the file was missing bank statements from September 26 to November 24, 2008, which would
have provided a 3-month verification of the borrower’s asset history

The bank statement listed 8 accounts, 5 of which were uniform gift to minor accounts, for which
the borrower and coborrower were custodians, with a total balance of $62,270, of which $60,622
was in the five uniform gift to minor accounts. In 3 of the 8 accounts, there were excessive

                                              45
deposits totaling $13,520 which weren’t sourced. Since the HUD-1 (dated January 17, 2009)
showed cash required from the borrowers of $11,186 these deposits were needed for the
borrower to close and should have been properly sourced.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 3-1F, provides that if documents are not more than 120 days
old when the loan closes, they do not have to be updated. In addition, as an alternative to
obtaining a verification of deposit, the lender may obtain original bank statements covering the
most recent 3-month period. Provided the bank statement shows the previous month’s balance,
this requirement is met by obtaining the most recent, consecutive statements.

HUD Handbook 4155.1, REV 5, section 2-10, provides that all funds for the borrower’s
investment in the property must be verified and documented. HUD Handbook 4155.1, REV 5,
paragraph 2-10B, requires that if there is a large increase in an account or the account was
opened recently, the lender must obtain a credible explanation of the source of those funds.




                                               46
FHA case number: 352-6127981

Loan amount: $325,752

Loan purpose: Purchase

Settlement date: February 11, 2009

Status as of August 31, 2011: Special forbearance

Payment before first default reported: 14

Summary: The loan evidenced underwriting deficiencies relating and inadequate verification of
the earnest money deposit.

Inadequate Verification of Earnest Money Deposit

The HUD-1 listed an earnest money deposit of $8,425, which exceeded 2 percent of the sales
price. While the file contained a copy of a $1,000 check, there was no documentation to support
the payment and source of the remaining $7,425 deposit needed.

HUD-FHA Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10A, provides that if the amount of the earnest
money deposit exceeds 2 percent of the sale price or appears excessive based on the borrower’s
history of accumulating savings, the lender must verify with documentation the deposit amount
and the source of funds.

HUD Handbook 4155.1, paragraph 1B(1)(g), provides that when standard documentation does
not provide enough information to support the approval decision, the lender must provide
additional, explanatory statements that are consistent with information in the application. The
explanatory statements must clarify or supplement the documentation submitted by the borrower.




                                              47
FHA case number: 352-6086467

Loan amount: $358,160

Loan purpose: Purchase

Settlement date: May 29, 2009

Status as of August 31, 2011: Ineligible for loss mitigation

Payment before first default reported: 14

Summary: The loan evidenced an underwriting deficiency relating to incorrect calculation of
income and liabilities.

Incorrect Calculation of Income and Liabilities

The borrower’s monthly employment income on the FHA loan underwriting and transmittal
summary was listed as $3,431; however, our calculation of the monthly employment income was
$3,408, resulting in an overstatement of monthly income of $23. The coborrower’s monthly
employment income on the FHA loan underwriting and transmittal summary was listed as
$2,109; however, our calculation of the monthly employment income was $2,083, resulting in
monthly base income being overstated by $25. In addition, the FHA loan underwriting and
transmittal summary listed alimony of $589 as other income; however, review of the bank
statement indicated that alimony would be $975. Therefore, alimony was understated by $386.
Further, a bank statement, dated March 6, 2009, reported a GMAC payment of $453; however,
this payment was not included on the credit report, and no explanation was obtained for the
conflicting information. If the increased income and a potential debt were included in the ratio
calculation, the borrower’s front ratio would decrease from 39.73 to 37.96 percent, and the back
ratio would increase from 52.59 to 56.21 percent.

HUD-FHA Requirements

HUD Handbook 4155.1, paragraph 1B(1)(g), states that when standard documentation does not
provide enough information to support the approval decision, the lender must provide additional,
explanatory statements that are consistent with information in the application. The explanatory
statements must clarify or supplement the documentation submitted by the borrower. FHA
TOTAL Mortgage Scorecard User Guide, chapter 2, states that the lender is responsible for
documenting and verifying the accuracy of the amount of the income being reported.

HUD Handbook 4155.1 paragraph 4.F.3 provides that a front ratio exceeding 31 percent, and a
back ratio exceeding 43 percent, may be acceptable only if significant compensating factors are
documented.




                                                48
